Jn tfje Supreme €ourt of tfje QSntteb £>tate#

CERTIFICATE OF COMPLIANCE
As required by Rule 33.1(h)

I, Jody D Kimbrell certify the above captioned case complies with
the word limitations of this Court, containing total 1,625. The word
limits do not include the documents exempt by rule 33.1(d). The
word processing system used is Microsoft Word
I declare under penalty of perjury that this document contains an
accurate word count according to the word count in the program
December 12, 2020
"/s/" Jody D Kimbrell

6

